@OCKLE

2311 Douglas Street 7 E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B t te fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-352

ROBIN BRINDLE, KATHLEEN BROWN, SANDRA CARTER,
MARCIE LAPORTE, AND KELVIN RAMIREZ,
Petitioners,
Vv.
DELTA AIRLINES, INC., AND THE RHODE ISLAND
DEPARTMENT OF LABOR AND TRAINING,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 5th day of December, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the REPLY BRIEF FOR PETITIONERS in the above entitled case. All
parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
VICKI J. BEIMA STUART BANNER
Robinson & Clapham Counsel of Record
123 Dyer Street UCLA School of Law
Suite 135 Supreme Court Clinic
Providence, RI 02903 405 Hilgard Ave.

Los Angeles, CA 90095
(310) 206-8506
banner@law.ucla.edu

Subscribed and sworn to before me this Sth day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

‘
General Notary . Zz Chie
State of Nebraska bes 6 Lote Qudrow- ,
My Commission Expires Nov 24, 2020 .

Notary Public Affiant 39129

 

 
SERVICE LIST

Attorneys for Respondents:

Brian Killian

Morgan, Lewis & Bockius LLP

1111 Pennsylvania Avenue, NW
Washington, DC 20004

(202) 373-6191
bryan.killian@morganlewis.com
Counsel for Respondent Delta Airlines

Sean Fontes

R.I. Department of Labor and Training

1511 Pontiac Avenue

Cranston, RI 02920

(401) 462-8890

sean. fontes@dlt.ri.gov

Counsel for Respondent The Rhode Island Dept of Labor and Training
